Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    HOSPITAL CLOSURE: 1999




                       MARCH 2001
                      OEI-04-01-00020
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and Human
Services programs as well as the health and welfare of beneficiaries served by them. This statutory
mission is carried out through a nationwide program of audits, investigations, inspections, sanctions, and
fraud alerts. The Inspector General informs the Secretary of program and management problems and
recommends legislative, regulatory, and operational approaches to correct them.

                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers, Regional
Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General. Principal OEI
staff included:

       Kristy Williams, Program Analyst
       Tricia Davis, Program Specialist
       Scott Horning, Program Analyst
       Linda Moscoe, Program Analyst
       Graham Rawsthorn, Team Leader




To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723. Reports are
also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
                                      TABLE OF CONTENTS

                                                                                                                                PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS


         Extent and Characteristics of Closed Hospitals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


                   How Many Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


                   The Effect on Bed Supply . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


                   Where They Were . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                   What They Were Like . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


         Reasons for Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         Impact of Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


                   How Many Patients Were Affected . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


                   What Inpatient Care and Emergency Services Are Available . . . . . . . . . . . . . . . 12


                   What the Building Is Used for Now . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES

         A. Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


         B. Number of Hospital Closures by State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


         C. Hospital Closures by Hospital Name and Location . . . . . . . . . . . . . . . . . . . . . . . . . . 17


         D. Hospital Openings by Hospital Name and Location . . . . . . . . . . . . . . . . . . . . . . . . . 19

                                EXECUTIVE SUMMARY

PURPOSE

         To describe the extent, characteristics, reasons for, and impact of hospital closure in 1999.



BACKGROUND

         The closure of hospitals in past years has generated public and congressional concern. We
         released a report in May 1989 describing the nationwide phenomenon of hospital closure in
         1987. Subsequently, we issued annual reports for hospital closures from 1988 through 1998.

         The findings from all the OIG studies of hospital closures are similar. The hospitals that closed
         were small and had low occupancy rates. When the hospitals closed, few patients were
         affected. Most patients could get medical care nearby.



FINDINGS

         Our inspection of hospital closures in 1999 produced findings similar to those previously
         reported for 1987-1998.

         !	        Sixty-four general, short-term, acute care hospitals closed in 1999 -- 1.3 percent of all
                   hospitals.

         !	        Twenty-one more hospitals closed in 1999 than closed in 1998, however, the
                   additional closings were offset by the twenty-two hospitals that opened or reopened in
                   1999, eight more than in 1998.

         !	        Twenty-one of the closed hospitals were rural and 43 were urban. This is
                   proportionate to the total number of hospitals in each category.

         !	        Closed hospitals in both rural and urban areas were smaller on average than the
                   national averages.

                          Rural hospitals that closed had an average of 42 beds as compared to an
                          average of 67 beds for all rural hospitals nationally.

                          Urban hospitals that closed had an average of 106 beds as compared to an
                          average of 223 beds for all urban hospitals nationally.


Hospital Closure: 1999                               1                                     OEI-04-01-00020
         !	        Occupancy rates for closed rural and urban hospitals were lower on average than the
                   national averages.

                          Rural hospitals that closed had an average occupancy rate of 31 percent as
                          compared to an average of 38 percent for all rural hospitals nationally. The
                          average daily census in the year prior to closure was about 13 patients.

                          Urban hospitals that closed had an average occupancy rate of 38 percent as
                          compared to an average of 57 percent for all urban hospitals nationally. The
                          average daily census in the year prior to closure was about 40 patients.

         !	        Medicare utilization in closed hospitals was about the same as the national average for
                   rural and urban hospitals.

                          In rural areas, the average Medicare utilization among hospitals that closed was
                          58 percent compared to an average of 56 percent for all rural hospitals
                          nationally. About eight Medicare patients were in the hospital on an average
                          day in the year prior to closure.

                          In urban areas, the average Medicare utilization among hospitals that closed
                          was 44 percent compared to an average of 41 percent for all urban hospitals
                          nationally. About 18 Medicare patients were in the hospital on an average day
                          in the year prior to closure.

         !	        Medicaid utilization in closed hospitals was about the same as the national average for
                   rural and urban hospitals.

                          In rural areas, the average Medicaid utilization among hospitals that closed was
                          14 percent as compared to an average of 13 percent for all hospitals nationally.
                          About two Medicaid patients were in the hospital on an average day in the year
                          prior to closure.

                          In urban areas, the average Medicaid utilization among hospitals that closed
                          was 16 percent as compared to an average of 14 percent for all urban hospitals
                          nationally. About seven Medicaid patients were in the hospital on an average
                          day in the year prior to closure.

         !	        Many factors caused hospitals to close. The reasons most often reported for closure,
                   in order, were financial problems, low occupancy, reorganizations, mergers,
                   bankruptcies and competition. Hospital administrators, former owners, general
                   counsel, city managers, and others provided the reasons for closure.

         !	        Officials in only eight of the 64 hospitals that closed included Medicare and Medicaid
                   reimbursement reductions as a reason for closure. However, only one claimed it to be
                   the sole reason. In this instance, the hospital’s occupancy was significantly lower than

Hospital Closure: 1999                              2                                     OEI-04-01-00020
                   the national average. However, Medicare and Medicaid utilization accounted for over
                   82 percent of the hospital’s total utilization.

         !	        Emergency and inpatient medical care was generally available within 10 miles of a
                   closed hospital.

         !	        At the time of our inspection, 32 of the 64 closed hospital facilities (50 percent) were
                   being used for health-related services such as outpatient facilities, health clinics or long-
                   term care facilities. Also, plans were being made to use 7 of the remaining 32 closed
                   hospitals for health-related services.




Hospital Closure: 1999                               3                                      OEI-04-01-00020
                                     INTRODUCTION

PURPOSE

         To describe the extent, characteristics, reasons for, and impact of hospital closure in 1999.



BACKGROUND

         In the late 1980s, closure of general, acute care hospitals generated public and congressional

         concern. Numerous questions were raised about the impact of hospital closure in the United

         States, as well as implications for public policy. A number of studies predicted that more

         hospitals would close in coming years. 


         In response to these concerns, the Office of Inspector General released a report in May 1989

         describing the phenomenon of hospital closure during 1987 in the United States. We found that

         the hospitals that closed were small and their closing did not severely affect access to care. 

         Many users of our 1987 hospital closure study encouraged us to continue year-by-year

         analyses of the phenomenon to detect differences in the rate of hospital closure, and in the

         characteristics and circumstances of hospitals that close.


         Similar inspections on hospital closures in 1988 through 1994 showed a downward trend in the

         number of closures. Hospital closures in 1995, 1996, 1997, and 1998 more than doubled

         those of 1994, but were still less than in most other years since we began this series of reports. 





Hospital Closure: 1999                             4                                     OEI-04-01-00020
         The findings from the 1987 through 1998 inspections were similar. The hospitals that closed
         were small and had low occupancy rates. When the hospitals closed, few patients were
         affected. Most could get medical care nearby.



METHODOLOGY

         We examined hospitals that closed in calendar year 1999. For purposes of this study, we use
         the following definitions.

                   Hospital: A facility that provides general, short-term, acute medical and surgical
                   inpatient care.

                   Closed Hospital: A facility that stopped providing general, short-term, acute inpatient
                   care in 1999. We did not consider a hospital a closure if it:
                           C     Merged with or was sold to another hospital but the physical plant
                                 continued to provide inpatient acute care,
                           C     Converted to critical access status, or
                           C     Both closed and reopened in 1999 in the same physical plant.

         To determine the extent, reasons for, and impact of hospital closures, we obtained information
         from State licensing and certification agencies, State health planning agencies, State hospital
         associations, Health Care Financing Administration (HCFA) data bases, officials associated
         with closed and nearby hospitals, and local public officials.

         We obtained information on the characteristics of all hospitals, including those that closed in
         1999 from the Hospital Cost Report Information System (HCRIS) maintained by HCFA.

         Appendix A describes our methodology in further detail.
                                ____    ____     ____     ____

         We conducted our inspection between October 2000 and February 2001. We conducted this
         inspection in accordance with the Quality Standards for Inspections issued by the President’s
         Council on Integrity and Efficiency.




Hospital Closure: 1999                              5                                    OEI-04-01-00020
                                            FINDINGS

         Our analysis shows that:

         !	        Sixty-four general, short-term, acute care hospitals closed in 1999 -- 1.3 percent of all
                   hospitals.

         !	        Twenty-one more hospitals closed in 1999 than closed in 1998, however, the
                   additional closings were offset by the 22 hospitals that opened or reopened in 1999,
                   eight more than in 1998.

         !         Most hospitals that closed were small and had low occupancy rates.

         !	        The characteristics, reasons for, and impact of 1999 closures were similar to the 1998
                   closures.

         !	        Although residents of a few communities had to travel greater distances for hospital
                   care, most had emergency and inpatient medical care available within 10 miles of a
                   closed hospital.

Extent and characteristics of closed hospitals
How many closed

         In 1999, there were 4,818 general, short-term, acute care hospitals in the United States entered
         on HCFA's HCRIS data base as participating in the Medicare program. Sixty-four hospitals
         closed in 1999 -- 1.3 percent of all hospitals nationally.

                  Number of hospitals in the U.S.                       4,818

                  Number of hospitals that closed in 1999                  64       1.3%


         While 64 hospitals closed in 1999, 20 new hospitals opened and 2 previously closed hospitals
         reopened. In comparison, 43 hospitals closed in 1998, 12 new hospitals opened and 2
         previously closed hospitals reopened. The net effect was an increase in 1999 hospital closures
         (42 hospitals) over the 1998 closures (29 hospitals).

The effect on bed supply

         Closure of the 64 general, acute care hospitals reduced 1999 inpatient bed supply by 5,414
         beds, or 0.7 percent.



Hospital Closure: 1999                               6                                      OEI-04-01-00020
                  Number of inpatient beds in the U.S.              738,377
                  Inpatient beds in hospitals that closed in 1999      5,414       0.7%

         The 22 hospital openings and reopenings, however, added 1,916 beds and 122 beds
         respectively. Therefore, the net reduction to the 1999 inpatient bed supply was 3,376 beds. In
         comparison, the net reduction to the 1998 inpatient bed supply was 2,615 beds.

Where they were

         The closed hospitals were located in 28 States. Texas had the greatest number of closures (7),
         followed by California (6), Georgia (4), Alabama (3), Arizona (3), Louisiana (3),
         Massachusetts (3), Michigan (3), and Oklahoma (3). The remaining 21 States had 1 or 2
         closures each. Appendix B lists the number of hospital closures by State. Appendix C lists the
         closures by location.

         Twenty-one of the closed hospitals were rural and 43 were urban. This is proportionate to the
         total number of hospitals in each category.

                                                     RURAL                     URBAN
           Hospitals in the U.S.:                    2,155                     2,663
           Closed in 1999                                21     1.0%             43       1.6%

What the closed hospitals were like

         Size: Both rural and urban hospitals that closed in 1999 were smaller, on average, than the
         national average size. The average number of beds for hospitals nationwide is 153. About 84
         percent of the hospitals that closed had fewer beds than the national average. Furthermore,
         over half (67 percent) of the hospitals that closed had 100 beds or less. In contrast, 16 percent
         of the closed hospitals had more beds than the national average.




Hospital Closure: 1999                              7                                     OEI-04-01-00020
                                      SIZE OF CLOSED HOSPITALS
                                                          Number of Closed Hospitals

                Number of Beds                Rural            Urban             Total           Percent

                         0 - 30                 10                9                19              30%
                         31 - 50                 8                7                15              23%
                     51 - 100                    1                8                 9              14%
                    101 - 150                    1                10               11              17%
                    151 - 200                    1                3                 4               6%
                    201 - 300                    0                5                 5               8%
                         301 >                   0                1                 1               2%
                         Totals                 21                43               64             100%

         Rural hospitals that closed had an average of 42 beds as compared to an average of 67 beds
         for all rural hospitals nationally. Urban hospitals that closed had an average of 106 beds as
         compared to an average of 223 beds for all urban hospitals nationally.




         Occupancy: Occupancy rates for closed rural and urban hospitals were lower on average
         than the national averages.1




         1
           Hospital occupancy rate is defined as the actual number of patient days divided by the total bed days
available. National average occupancy rate is defined as the sum of all hospitals’ occupancy rates, divided by the
number of hospitals.

Hospital Closure: 1999                                     8                                             OEI-04-01-00020
         Rural hospitals that closed had an average occupancy rate of 31 percent as compared to an
         average of 37.7 percent for all rural hospitals nationally. The average daily census in the year
         prior to closure was about 13 patients versus the national average of 25 patients.

         Urban hospitals that closed had an average occupancy rate of 38.1 percent as compared to an
         average of 57 percent for all urban hospitals nationally. The average daily census in the year
         prior to closure was about 40 patients versus the national average of 127 patients.




         Medicare Utilization: The average Medicare utilization among rural and urban hospitals that
         closed was about the same as the national average.2

         In rural areas, the average Medicare utilization among hospitals that closed was 58.5 percent
         compared to an average of 56.1 percent for all rural hospitals nationally. About eight Medicare
         patients were in the hospital on an average day in the year prior to closure.

         In urban areas, the average Medicare utilization among hospitals that closed was 44.3 percent
         compared to an average of 40.9 percent for all urban hospitals nationally. About 18 Medicare
         patients were in the hospital on an average day in the year prior to closure.




         2
          Average Medicare utilization in closed hospitals is defined as the percent of Medicare patient days
compared to the total patient days for each hospital, summed and divided by the number of hospitals. National
average Medicare utilization is the percent of Medicare utilization of each hospital, summed and divided by the total
number of hospitals.

Hospital Closure: 1999                                     9                                            OEI-04-01-00020
         Medicaid Utilization: The average Medicaid utilization among rural and urban hospitals that
         closed was about the same as the national average.3

         In rural areas, the average Medicaid utilization among hospitals that closed was 13.8 percent as
         compared to an average of 13 percent for all hospitals nationally. About two Medicaid patients
         were in the hospital on an average day in the year prior to closure.

         In urban areas, the average Medicaid utilization among hospitals that closed was 16 percent as
         compared to an average of 14 percent for all urban hospitals nationally. About 7 Medicaid
         patients were in the hospital on an average day in the year prior to closure.




         3
             Medicaid utilization is calculated in the same way as Medicare utilization.

Hospital Closure: 1999                                       10                            OEI-04-01-00020
Reasons for hospital closure
         The officials we interviewed reported many reasons for hospital closure. The most often
         reported reasons for closures, in order, were financial problems, low occupancy,
         reorganizations, mergers, bankruptcies and competition. These reasons for closure were
         interrelated.

         Officials in only eight of the 64 hospitals that closed included Medicare and Medicaid
         reimbursement reductions as a reason for closure. However, only one claimed it to be the sole
         reason. In this instance, the hospital’s occupancy was significantly lower than the national
         average. However, Medicare and Medicaid utilization accounted for over 82 percent of the
         hospital’s total utilization.

         The other seven hospitals claimed mismanagement, competition, and private business decisions
         as contributing reasons for closure. For example, a hospital that closed in Georgia faced
         competition from a nearby hospital (12 miles) that had about 7 times the number of hospital
         beds available.

         Eleven hospitals closed in order to open ten new facilities. For example, two hospitals in
         California did not meet earthquake standards. Hospital management determined that it would
         be more cost effective to build new facilities rather than renovate the existing facilities. In North
         Carolina, two local hospitals closed and were replaced by one new regional hospital located
         about midway between the two closed facilities.

Impact of hospital closure
         In communities where hospitals closed in 1999, we determined the

         !         number of patients affected by closure of hospitals,

         !         availability of inpatient care and emergency medical services, and

         !         current use of closed hospital facilities.

How many patients were affected

         For rural hospitals that closed in 1999, the average daily census in the year prior to closure was
         about 13 patients. The urban hospitals that closed had an average daily census of about 40
         patients.




Hospital Closure: 1999                               11                                  OEI-04-01-00020
                                        WHEN HOSPITALS CLOSED,
                                 HOW MANY PATIENTS WERE AFFECTED DAILY?

                                                                       Rural Hospitals                Urban Hospitals
                 Average Number of Beds                                       41.6                           105.6
                 Average Occupancy Rate                                     x 31%                          x 38.1%
                 Average Number of Patients                                   12.9                           40.2

            We analyzed Medicare utilization data to determine the number of elderly patients affected by
            hospital closure in 1999. In rural hospitals that closed, about eight Medicare patients were in
            the hospital on an average day in the year prior to closure. In the urban hospitals that closed,
            about 18 Medicare patients were in the hospital on an average day.


                                   WHEN HOSPITALS CLOSED,
                        HOW MANY MEDICARE PATIENTS WERE AFFECTED DAILY?

                                                                       Rural Hospitals                Urban Hospitals
                 Average Number of Patients                                   12.9                           40.2
                 Average Medicare Utilization Rate                          x 58.5%                        x 44.3%
                 Average Number Medicare Patients                             7.5                            17.8

What inpatient care and emergency services are available

            Inpatient Care: In most communities where a hospital closed in 1999, inpatient hospital care
            was available nearby.4




            4
                We assessed availability of inpatient medical care in miles from a closed hospital to the nearest inpatient
facility.

Hospital Closure: 1999                                          12                                             OEI-04-01-00020
                          NEAREST INPATIENT CARE TO CLOSED HOSPITALS

                                                                         NUMBER OF CLOSED
                                                                            HOSPITALS
                           DISTANCE                                   RURAL                        URBAN
             Within 3 Miles                                       6          28.6%            18             41.9%
             4-10 Miles                                           4          19.0%            19             44.2%
             11-20 Miles                                          4          19.0%            5              11.6%
             21-30 Miles                                          6          28.6%            1              2.3%
             More than 30 Miles                                   1           4.8%            0              0.0%
                              Totals                             21         100.0%            43         100.0%

         Rural Areas: Residents in 14 of the 21 rural communities (67 percent) where a hospital closed
         could get inpatient hospital care within 20 miles of the closed hospital. Residents of only one
         community had to travel in excess of 30 miles to receive inpatient care. The residents of
         Wiggins, Mississippi had to travel 33 miles.

         Urban Areas: In 37 of the 43 urban communities (86 percent) where a hospital closed in
         1999, residents could get inpatient hospital care within 10 miles of the closed hospital.
         Residents in all 43 urban communities where a hospital closed could get inpatient care within 30
         miles of the closed hospital.

         Emergency Services: When a hospital closed, the community lost not only inpatient beds,
         but also 24-hour emergency services.5

         Rural Areas: In 12 of the 21 rural communities (57 percent) where a hospital closed in 1999,
         emergency care facilities were available within 20 miles of the closed hospital. Of the remaining
         nine rural communities where a hospital closed, emergency care for eight was available within
         30 miles. For Wiggins, Mississippi, 24-hour emergency care was available 33 miles from the
         closed hospital.

         Urban Areas: Emergency care facilities were available within 10 miles of the closed hospital in
         37 of the 43 urban communities where a hospital closed in 1999. Five other urban communities
         had emergency care within 20 miles while only one community had to travel 30 miles for 24-
         hour emergency care.




         5
         We assessed availability of emergency medical care in miles from a closed hospital to the nearest
emergency facility.

Hospital Closure: 1999                                   13                                          OEI-04-01-00020
                     NEAREST EMERGENCY SERVICES TO CLOSED HOSPITALS

                                                                NUMBER OF CLOSED
                                                                   HOSPITALS
                            DISTANCE                          Rural                    Urban
              Within 3 Miles                              5         23.8%         19          44.2%
              4-10 Miles                                  4         19.0%         18          41.9%
              11-20 Miles                                 3         14.3%         5           11.6%
              21-30 Miles                                 8         38.1%         1            2.3%
              More than 30 Miles                          1           4.8%        0            0.0%
                               Totals                    21        100.0%         43         100.0%

What the building is used for now

         At the time of our inspection, 32 of the 64 closed hospital facilities (50 percent) were being
         used for health-related services. For example:

         !	        Liberty Medical Center in Baltimore, Maryland along with five other closed hospitals
                   became outpatient facilities.

         !	        Lindsay Municipal Hospital in Lindsay, Oklahoma along with five other closed hospitals
                   became health clinics.

         !         Princeton Hospital in Orlando, Florida became a Psychiatric Hospital

         !	        Lakeland Medical Center- Berrien Center in Berrien Center, Michigan, Saratoga
                   Hospital in Detroit, Michigan and Shannon Medical Center in San Angelo, Texas are
                   now long-term care facilities.

         Of the closed hospital facilities that were not being used for health-related services, plans were
         being made to use 7 for health-related services. In addition, one facility was destroyed by a
         tornado and was in the process of being rebuilt.




Hospital Closure: 1999                            14                                      OEI-04-01-00020
                                                                                APPENDIX A

METHODOLOGY

Extent of Hospital Closure

To determine how many hospitals closed in 1999, we contacted State licensing and certification
agencies, State hospital associations, and State health planning agencies. We also compiled Health
Care Financing Administration (HCFA) data on terminated hospitals in 1999. When a closed hospital
met the study definition or when questions arose, we surveyed officials associated with the closed
hospitals, officials associated with hospitals nearest to the closed hospital, and local public officials.

To quantify the number of hospitals in the United States, we used the Hospital Cost Report Information
System (HCRIS) maintained by HCFA. We included only general, short-term, acute care hospitals
under Medicare's Prospective Payment System (PPS) in the universe. There were 4,818 hospitals
listed on HCRIS as short-term, acute care, general hospitals for 1999.

Characteristics of Hospital Closure

To analyze characteristics of closed hospitals, we used HCRIS data. We used the latest pre-closure
cost reports. For example, if a hospital closed in May 1999 and its accounting year was on a January-
December cycle, we used the hospital's January 1, 1998 to December 31, 1998 report.

Reasons for and Impact of Hospital Closure

We determined the reasons for hospital closure by interviewing knowledgeable officials related to the
closed hospitals. Such officials included:

 !       Former hospital administrators, board members, and/or staff of closed hospitals,

 !       Hospital administrators and/or staff at the nearest hospitals,

 !       Local fire, health, and government officials, and

 !       Officials associated with closed hospital parent corporations.

We determined the “impact” of hospital closures by identifying the distance from a closed hospital to
the nearest still-operating hospital and to 24-hour emergency services. In addition we used the HCRIS
to determine how many patients, including Medicare and Medicaid, were displaced by the closures.




Hospital Closure: 1999                            15                                    OEI-04-01-00020
                                                                       APPENDIX C
                                                                                B

                          1999 HOSPITAL CLOSURES - RANKED BY STATE
                  State              Total Closures   Rural Closures   Urban Closures
 Texas                                     7                3                4
 California                                6                0                6
 Georgia                                   4                1                3
 Alabama                                   3                1                2
 Arizona                                   3                0                3
 Louisiana                                 3                0                3
 Massachusetts                             3                0                3
 Michigan                                  3                0                3
 Oklahoma                                  3                2                1
 Florida                                   2                0                2
 Kansas                                    2                2                0
 Maryland                                  2                0                2
 Minnesota                                 2                2                0
 Missouri                                  2                1                1
 Mississippi                               2                2                0
 North Carolina                            2                2                0
 New Jersey                                2                0                2
 Ohio                                      2                0                2
 Virginia                                  2                1                1
 Arkansas                                  1                0                1
 Colorado                                  1                0                1
 Illinois                                  1                0                1
 Kentucky                                  1                0                1
 Maine                                     1                0                1
 Nebraska                                  1                1                0
 South Carolina                            1                1                0
 Tennessee                                 1                1                0
 Utah                                      1                1                0
                28 States                 64               21               43




Hospital Closure: 1999                         16                           OEI-04-01-00020
                     1999 HOSPITAL CLOSURES BY NAME AND LOCATION
                                                                                Rural/
                         Hospital Name                 City         State       Urban
 Baptist Medical Center- Downtown               Montgomery          AL          Urban
 Florence Hospital                              Florence            AL          Urban
 Vaughan Perry Hospital                         Marion              AL          Rural
 Baptist Memorial Medical Center                North Little Rock   AR          Urban
 Central Arizona Medical Center                 Florence            AZ          Urban
 Community Hospital Medical Center              Phoenix             AZ          Urban
 Phoenix Regional Medical Center                Phoenix             AZ          Urban
 Natividad Medical Center                       Salinas             CA          Urban
 San Bernardino County Medical Center           San Bernardino      CA          Urban
 St. Louise Hospital                            Morgan Hill         CA          Urban
 UCSF- Mount Zion Medical Center                San Francisco       CA          Urban
 Valley Community Hospital                      Santa Maria         CA          Urban
 Washington Medical Center                      Culver City         CA          Urban
 Precedent Health Center                        Denver              CO          Urban
 Clearwater Community Hospital                  Clearwater          FL          Urban
 Princeton Hospital                             Orlando             FL          Urban
 Baptist North Hospital                         Cumming             GA          Urban
 Bowdon Area Hospital                           Bowdon              GA          Urban
 Ridgecrest Hospital                            Clayton             GA          Rural
 West Paces Medical Center                      Atlanta             GA          Urban
 St. Joseph Hospital- Belvidere                 Belvidere           IL          Urban
 Dechairo Hospital                              Westmoreland        KS          Rural
 Ellsworth County Medical Center                Ellsworth           KS          Rural
 Woodford County Hospital                       Versailles          KY          Urban
 Concord Hospital                               Baton Rouge         LA          Urban
 Jo Ellen Smith Medical Center                  New Orleans         LA          Urban
 Sterlington Hospital Inc.                      Sterlington         LA          Urban
 Boston Regional Medical Center                 Stoneham            MA          Urban
 The Malden Hospital                            Malden              MA          Urban
 Medical Center at Symmes                       Arlington           MA          Urban
 Church Hospital                                Baltimore           MD          Urban
 Liberty Medical Center                         Baltimore           MD          Urban
 Westbrook Community Hospital                   Westbrook           ME          Urban
 Lakeland Medical Center- Berrien Center        Berrien Center      MI          Urban
 Saratoga Hospital                              Detroit             MI          Urban
 Sinai Hospital                                 Detroit             MI          Urban
 Harmony Community Hospital                     Harmony             MN          Rural
 Lake City Hospital                             Lake City           MN          Rural
 Arcadia Hospital                               Pilot Knob          MO          Rural
 Park Lake Medical Center                       Kansas City         MO          Urban
 Smith County Hospital                          Raleigh             MS          Rural
 Stone County Hospital                          Wiggins             MS          Rural
 Charles A. Cannon Jr. Memorial Hospital        Banner Elk          NC          Rural
 Sloop Memorial Hospital Inc.                   Crossnore           NC          Rural



Hospital Closure: 1999                     17                               OEI-04-01-00020
                                                                  APPENDIX C
                                                                  CONTINUED


         1999 HOSPITAL CLOSURES BY NAME AND LOCATION - CONTINUED
                                                                              Rural/
                         Hospital Name                  City      State       Urban
 Goli Medical Center                             Sargent          NE          Rural
 Memorial Medical Center at South Amboy          South Amboy      NJ          Urban
 Montclair Community Hospital                    Montclair        NJ          Urban
 MedCenter Hospital                              Marion           OH          Urban
 St. Lukes Medical Center                        Cleveland        OH          Urban
 Integris Bethany Hospital                       Bethany          OK          Urban
 Lindsay Municipal Hospital                      Lindsay          OK          Rural
 Stroud Municipal Hospital                       Stroud           OK          Rural
 Byerly Hospital                                 Hartsville       SC          Rural
 Cumberland River Hospital South                 Gainesboro       TN          Rural
 Columbia Surgicare Specialty Hospital           Corpus Christi   TX          Urban
 East Texas Medical Center- Rusk                 Rusk             TX          Rural
 Memorial Hospital Pasadena                      Pasadena         TX          Urban
 Presbyterian Medical Center of Wylie            Wylie            TX          Urban
 Shannon Medical Center- St. Johns Campus        San Angelo       TX          Urban
 Silsbee Doctors Hospital                        Silsbee          TX          Rural
 Starlite Village Hospital                       Center Point     TX          Rural
 Wasatch County Hospital                         Heber City       UT          Rural
 Carilion Radford Community Hospital             Radford          VA          Rural
 Columbia Pentagon City Hospital                 Arlington        VA          Urban




Hospital Closure: 1999                      18                            OEI-04-01-00020
                                                                     APPENDIX D


      1999 HOSPITAL OPENINGS AND REOPENINGS BY NAME AND LOCATION
                                                                                 Rural/
                         Hospital Name                  City         State       Urban
 Baptist Memorial Medical Center                 North Little Rock   AR          Urban
 St. Vincent Medical Center- Sherwood            Sherwood            AR          Urban
 Arrowhead Regional Medical Center               Colton              CA          Urban
 Bakersfield Heart Hospital                      Bakersfield         CA          Urban
 City of Angels Medical Center                   Los Angeles         CA          Urban
 Natividad Medical Center                        Salinas             CA          Urban
 Baptist Medical Center                          Cumming             GA          Urban
 Ellsworth County Medical Center                 Ellsworth           KS          Rural
 Lake City Medical Center                        Lake City           MN          Rural
 Doctors Hospital of Springfield                 Springfield         MO          Urban
 Charles A. Cannon Jr. Medical Center            Linville            NC          Rural
 Physicians Hospital                             Oklahoma City       OK          Urban
 Southcrest Hospital                             Tulsa               OK          Urban
 Wetumka General Hospital                        Wetumka             OK          Urban
 Carolina Pines Regional Medical Center          Hartsville          SC          Rural
 Providence Hospital Northeast                   Columbia            SC          Urban
 Baptist Memorial Hospital- Collierville         Collierville        TN          Urban
 Kell West Regional Hospital, L.L.C              Wichita Falls       TX          Urban
 Vista Medical Center Hospital                   Pasadena            TX          Urban
 Heber Valley Medical Center                     Heber City          UT          Rural
 Carilion New River Valley Medical Center        Christiansburg      VA          Rural
 Aurora Medical Center                           Kenosha             WI          Urban




Hospital Closure: 1999                      19                               OEI-04-01-00020
